               Department of Veterans Affairs
               Office of Inspector General



                    Office of Healthcare Inspections

Report No. 13-03624-58



              Healthcare Inspection 


  Alleged Patient Safety Concerns in 

         the Operating Room 

     VA Maine Healthcare System 

           Augusta, Maine 





February 12, 2014

                         Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations:
                    Telephone: 1-800-488-8244
                     E-Mail: vaoighotline@va.gov
                      Web site: www.va.gov/oig
    Alleged Patient Safety Concerns in the Operating Room, VA Maine Healthcare System, Augusta, ME



                                 Executive Summary 

The VA Office of Inspector General Office of Healthcare Inspections conducted an
inspection to assess the merit of three allegations at the VA Maine Healthcare System
(facility), Augusta, ME. Specifically, it was alleged that the operating room (OR) has
inadequate personnel, such as a front desk clerk and/or a nurse scheduled in the clean
core area, to support OR staff, especially in the event of an emergency; pre-operative
anesthesia evaluations of complex patients are inadequate because anesthesia
providers frequently evaluate patients just prior to surgery, leaving insufficient time
should patients require further evaluations; and the facility’s surgical mortality rate is
three times the national average, suggesting a systemic issue with surgical quality.

We substantiated that the OR did not have a front desk clerk and/or a nurse scheduled
to work in the clean core area. However, due to the absence of a master staffing plan,
we could not substantiate that the currently available staff was inadequate to support
OR staff. We did not substantiate that pre-operative anesthesia evaluations of complex
patients are inadequate. Anesthesia providers told us that there is adequate time to
conduct evaluations. We found no timeframe requirement for when the pre-operative
anesthesia evaluation of patients should take place. Our review of the surgical mortality
data did not identify obvious outliers or negative trends that would indicate systemic
quality of care issues in the OR and require further review. In addition to the original
allegations, we identified weaknesses in the surgical and OR quality improvement
processes. We found that the Surgical Work Group had not yet met and that the OR
Committee last met more than a year ago.

We recommended that the Facility Director develop and implement a master staffing
plan for the OR based on Association of Perioperative Registered Nurses
recommendations to ensure adequate coverage and support for OR staff. We also
recommended that the Facility Director ensure that the Surgical Work Group and OR
Committee are functioning in accordance with Veterans Health Administration and local
policies and that the recommendations made pursuant to a recent protected Veterans
Health Administration Surgical Program review are implemented.

Comments
The Veterans Integrated Service Network and Facility Directors concurred with our
recommendations and provided an acceptable action plan. (See Appendixes A and B,
pages 6–9 for the Directors’ comments.) We will follow up on the planned actions until
they are completed.




                                                          JOHN D. DAIGH, JR., M.D.
                                                         Assistant Inspector General for
                                                           Healthcare Inspections


VA Office of Inspector General                                                                   i
    Alleged Patient Safety Concerns in the Operating Room, VA Maine Healthcare System, Augusta, ME


                                         Purpose 

The VA Office of Inspector General (OIG) Office of Healthcare Inspections conducted
an inspection to assess the merit of allegations concerning operating room (OR)
staffing, pre-operative anesthesia evaluations of complex patients, and the surgical
mortality rate at the VA Maine Healthcare System (facility), Augusta, ME.

                                     Background 

Facility Profile. The facility has 67 general medical, surgical, intermediate, and mental
health beds, and a 100-bed community living center. It offers primary care, preventative
health, and mental health services to approximately 40,000 veterans. The facility is part
of the VA New England Healthcare System – Veterans Integrated Service Network
(VISN) 1.

Facility surgical subspecialties include urology, general surgery, thoracic surgery,
orthopedic surgery, podiatry, ophthalmology, and otolaryngology. OR staff include, but
are not limited to, surgeons, anesthesiologists, nurse anesthetists, circulating nurses,
scrub nurses, and surgical technicians (STs). The circulating nurse on duty prepares
the operating room for surgical cases, monitors patients through the procedures, assists
the surgeon and ST or scrub nurse into their gowns and gloves, opens the outside
wrappings from sterile instrument trays, and labels specimen containers. The ST or
scrub nurse (a nurse who performs the duties of the ST) opens sterile instrument packs,
ensures the correct instruments are in the packs, organizes surgical instruments, and
hands the correct instruments to the surgeon.

Surgical Quality Data. The Veterans Health Administration’s (VHA) National Surgery
Office (NSO) establishes policies for surgical programs and collects and disseminates
clinical performance data. Within NSO, the VA Surgical Quality Improvement Program
(VASQIP) is a nationally-validated, risk-adjusted, outcomes-based program established
to measure and improve the quality of surgical care. VASQIP is used to identify a range
of statistically acceptable outcome rates for mortality for all surgical procedures
combined, as well as by each surgical subspecialty performed at any one facility.

Allegations. The VA OIG Hotline Division received the following allegations:

   	 The OR has inadequate personnel, such as a front desk clerk or a nurse
      assigned to the clean core area, to support OR staff, especially in the event of an
      emergency.

   	 Pre-operative anesthesia evaluations of complex patients are inadequate
      because anesthesia providers frequently evaluate patients just prior to surgery,
      leaving insufficient time should patients require further evaluations.

   	 The facility’s surgical mortality rate is three times the national average,
      suggesting a systemic issue with surgical quality.



VA Office of Inspector General                                                                  1
     Alleged Patient Safety Concerns in the Operating Room, VA Maine Healthcare System, Augusta, ME


                                Scope and Methodology 

We interviewed the complainant to clarify the allegations. We conducted a site visit
August 7–8, 2013. We interviewed the Chiefs of Surgery and Anesthesia; the acting
Chief of Staff; OR anesthesia providers, RNs, and STs; and other clinical and
administrative staff knowledgeable about surgical and OR quality assurance and data
reporting.

We also interviewed the VISN 1 Chief Surgical Consultant and the VHA Surgical OR
Nurse Managers Advisory Board Chair. We reviewed facility Mortality and Morbidity
Review meeting minutes, OR staffing schedules, and OR utilization reports. We also
reviewed VASQIP reports and clinical outcomes data for FYs 2012 and
2013 through June 20131; VHA, VISN, and facility policies; facility medical staff bylaws;
and industry standards. Our review period was January 2012 through August 2013.

We conducted the inspection in accordance with Quality Standards for Inspection and
Evaluation published by the Council of the Inspectors General on Integrity and
Efficiency.




1
  FY 2013, quarter 3 (April–June 2013) was the last completed and reported quarter available at the time of our
review.


VA Office of Inspector General                                                                                    2
    Alleged Patient Safety Concerns in the Operating Room, VA Maine Healthcare System, Augusta, ME



                                   Inspection Results 


Issue 1: OR Staffing

We substantiated that the OR did not have a front desk clerk and/or a nurse scheduled
to work in the clean core area. However, due to the absence of a master staffing plan,
we could not substantiate that the currently available staff was inadequate to support
OR staff.

According to OR staff, the adequacy of staffing, although much improved, is an ongoing
issue. Staff told us that, generally, no one is available in the immediate area, such as
the OR clean core or front desk, to call for help if blood products need to be retrieved
during a procedure, laboratory tubes need to be delivered to the laboratory for
immediate testing, or to meet other emergency needs. Currently, if OR staff need
assistance, some staff said they would call on the adjacent Post Anesthesia Care Unit
staff, if available, while others felt that there are periods of vulnerability when there is no
one to call for assistance.

Despite being without a front desk clerk and/or a nurse available in the clean core area,
staff could not recall an instance where patient safety had been compromised. OR
managers were diligent about scheduling and reassigning staff to areas of priority,
including operating/procedure rooms. Staff cited several reasons why certain staff
positions are unfilled. For example, in late December 2012/early January 2013, the
facility lost two STs, but facility managers authorized only one of the two ST positions to
be filled. At the time of our review (approximately 8 months later), the ST position that
was authorized to be filled had not been posted for recruitment. Staff also explained the
importance of balancing the right numbers of surgeons, anesthesia providers, nurses,
and STs for optimal OR utilization and patient flow but acknowledged the challenge in
maintaining a balance of staff. Due to staff attrition, annual or sick leave, light duty, and
other instances in which staff shortages may exist, ongoing staffing fluctuations occur.
At the time of our onsite review, and in addition to the ST vacancy, the facility had one
vacant position for an RN.

The Association of Perioperative Registered Nurses (AORN) publishes
recommendations and guidance on how to calculate minimum staffing of direct and
indirect patient caregivers.2 The guidance provides a framework for developing a
master staffing plan to cover the continuum of care for surgical patients, from case
scheduling to post-operative follow-up care. The AORN calculation factors in relief
replacement, to relieve staff who are on annual or sick leave, a lunch break, or
otherwise unavailable. Facility and OR managers told us that they follow AORN
standards and guidelines; however, they had not developed a master staffing plan, an
expectation of the VHA National Surgical Advisory Board, to ensure that OR staffing
meets AORN minimum staffing recommendations for the three ORs currently in use. A

2
 AORN Guidance Statement: Perioperative Staffing, in Perioperative Standards and Recommended Practices
(Denver: AORN, Inc., 2009) 281–287.


VA Office of Inspector General                                                                           3
       Alleged Patient Safety Concerns in the Operating Room, VA Maine Healthcare System, Augusta, ME


master staffing plan is especially important considering the facility’s plan to eventually
activate the other two equipped ORs.

Issue 2: Pre-Operative Anesthesia Evaluations of Complex Patients

We did not substantiate the allegation that pre-operative anesthesia evaluations of
complex patients are inadequate because anesthesia providers frequently evaluate
patients just prior to surgery, leaving insufficient time should patients require further
evaluations. While VHA requires that anesthesia providers evaluate patients prior to
administering anesthesia, there is no timeframe defined as to when the pre-operative
anesthesia evaluations of patients should take place.

All five anesthesia providers (anesthesiologists and nurse anesthetists) told us that
there is adequate time to conduct anesthesia evaluations of complex patients just prior
to surgery. They also stated that, while they cannot recall a case where they have had
to delay or cancel a patient’s surgery based on clinical assessment of the patient or
need for further evaluation (for example, reviewing outside records or conducting
laboratory testing), they would be comfortable making the recommendation to delay or
cancel a patient’s surgical procedure for further evaluation should the need arise.

Issue 3: Surgical Mortality Rate

Our review of VASQIP surgical mortality data for FY 2012 and FY 2013 through
March 2013 did not identify obvious outliers or negative trends that would indicate
systemic quality of care issues in the OR, or that would require further review.
However, after our onsite visit, VASQIP mortality data for quarter 3 of FY 2013 were
issued. Prompted by the surgical mortality data, VISN officials, as required by VHA
policy, appropriately initiated a review of the facility’s surgical program, which included
reviews of recent deaths, meeting minutes, internal and external reports, and interviews
with key surgical staff. The surgical program review resulted in multiple
recommendations to the Facility Director. VASQIP data and resulting reviews are
confidential and privileged under the provisions of Title 38, U.S. Code section 5705.

Issue 4: OR and Surgical Quality Management

During the course of our review, we identified weaknesses in OR quality improvement
processes. As of January 2013, VHA required surgical facilities to form a Surgical Work
Group to meet at least monthly to review VASQIP surgical quality reports, oversee and
manage surgical outcomes data, identify gaps with surgical care and recommend
actions, and perform various other quality assurance and performance improvement
activities.3 When we requested meeting minutes from the facility’s Surgical Work
Group, we found that the group had not yet met.

Additionally, local policy requires the OR Committee to meet monthly, to problem-solve
functional and quality issues that have been identified, and to proactively address


3
    VHA Handbook 1102.01, National Surgery Office, January 30, 2013.


VA Office of Inspector General                                                                     4
       Alleged Patient Safety Concerns in the Operating Room, VA Maine Healthcare System, Augusta, ME


potential issues that may hinder the daily functions of the OR. When we requested OR
Committee minutes, we found that the committee had not met in over a year.4

                                             Conclusions 

We substantiated that the OR did not have a front desk clerk and/or a nurse scheduled
to work in the clean core area. However, due to the absence of a master staffing plan,
we could not substantiate that the currently available staff was inadequate to support
OR staff.

We did not substantiate that pre-operative anesthesia evaluations of complex patients
are inadequate because anesthesia providers frequently evaluate patients just prior to
surgery, leaving insufficient time should patients require further evaluations. Anesthesia
providers told us that there is adequate time to conduct evaluations of complex patients,
even if it is just prior to surgery. Furthermore, we found no timeframe requirement for
when the pre-operative anesthesia evaluation of patients should take place.

Our review of VASQIP surgical mortality data did not identify obvious outliers or
negative trends that would indicate systemic quality of care issues in the OR and
require further review beyond the recommendations of the internal VISN review.

In addition to the original allegations, during the course of our review we found that the
Surgical Work Group had not yet met as required by VHA policy, and that the OR
Committee last met more than a year ago. The Surgical Work Group and OR
Committee serve important roles in monitoring and improving surgical quality of care
and overall OR efficiency and functioning.

                                      Recommendations 

1. We recommended that the Facility Director develop and implement a master staffing
plan for the operating room based on Association of Perioperative Registered Nurses
recommendations to ensure adequate coverage and support for operating room staff.

2. We recommended that the Facility Director ensure that the Surgical Work Group and
Operating Room Committee are implemented and functioning in accordance with
Veterans Health Administration and local policies.

3. We recommended that the Facility Director implement the recommendations made
during a protected Veterans Health Administration Surgical Program review.




4
    Facility Circular 00-12-15 (112), Operating Room Committee, March 7, 2012.


VA Office of Inspector General                                                                     5
    Alleged Patient Safety Concerns in the Operating Room, VA Maine Healthcare System, Augusta, ME
                                                                                      Appendix A
                            VISN Director Comments


               Department of
               Veterans Affairs                             Memorandum

   Date:	      December 27, 2013

   From:	      Director, VA New England Healthcare System (10N1)

   Subject:	   Healthcare Inspection – Alleged Patient Safety Concerns in the
               Operating Room, VA Maine Healthcare System, Augusta, ME

       To:     Director, Bedford Office of Healthcare Inspections (54BN)

       Cc:     Director, Management Review Service (VHA 10AR MRS OIG
               Hotline)

               I have reviewed and concur with the action plans regarding the
               Healthcare Inspection: Alleged Patient Safety Concerns in the
               Operating Room, VA Maine Healthcare System, Augusta, ME.



               (original signed by:)
               Glen B. Gechlik, MD 

               Acting Deputy Network Director 


               for

               Michael F. Mayo-Smith, MD, MPH 

               Network Director 





VA Office of Inspector General                                                                  6
    Alleged Patient Safety Concerns in the Operating Room, VA Maine Healthcare System, Augusta, ME
                                                                                      Appendix B
                         System Director Comments


               Department of
               Veterans Affairs                             Memorandum

   Date:	      December 24, 2013

   From:	      Director, VA Maine Healthcare System (402/00)

   Subject:	   Healthcare Inspection – Alleged Patient Safety Concerns in the
               Operating Room, VA Maine Healthcare System, Augusta, ME

       To:     Director, VA New England Healthcare System (10N1)

               I have reviewed and concur with the action plans included in the
               attached hotline transmittal memorandum regarding VA OIG
               Healthcare Inspection Draft Report: Alleged Patient Safety
               Concerns in the Operating Room, VA Maine Healthcare System,
               Augusta, ME (issued December 16, 2013).



               (original signed by:)
               Amy Gartley

               for

               RYAN S. LILLY




VA Office of Inspector General                                                                  7
    Alleged Patient Safety Concerns in the Operating Room, VA Maine Healthcare System, Augusta, ME



                         Comments to OIG’s Report
The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that the Facility Director develop and
implement a master staffing plan for the operating room based on Association of
Perioperative Registered Nurses recommendations to ensure adequate coverage and
support for operating room staff.

Concur

Target date for completion: 2/28/14

Facility response: VA Maine Healthcare System (HCS) Nursing Services will update
the Scope of Care and Practice – Operating Room (attachment G) of the Nursing Scope
of Service and Master Staffing Plan, Memorandum No. 118-13-08 to provide reference
to AORN standards and clarification regarding staffing in the operating room.

Recommendation 2. We recommended that the Facility Director ensure that the
Surgical Work Group and Operating Room Committee are implemented and functioning
in accordance with Veterans Health Administration and local policies.

Concur

Target date for completion: 3/28/14

Facility response: VA Maine HCS has determined that the responsibilities of the
Surgical Work Group outlined in VHA Handbook 1102.01 encompass similar
responsibilities of existing VA Maine HCS Operating Room and Invasive Procedure
Committees. Due to this redundancy, VA Maine HCS surgical leadership has
incorporated the committees’ functions and formed a new Surgical Work Group that has
met on a monthly basis since October 2013 in accordance with Veterans Health
Administration and local policies. In addition, per local policy regarding committee
procedures, a committee circular will be developed to serve as functional statement and
detail the specific purpose of the Surgical Work Group/Committee, membership,
committee’s authority, and meeting dates. Circular will be completed by 3/28/14.

Recommendation 3. We recommended that the Facility Director implement the
recommendations made during a protected Veterans Health Administration Surgical
Program review.

Concur

Target date for completion: 3/28/14 (tentative)



VA Office of Inspector General                                                                  8
    Alleged Patient Safety Concerns in the Operating Room, VA Maine Healthcare System, Augusta, ME


Facility response: Our facility continues to work with VISN surgical leadership in
making improvements to the surgical infrastructure and back up sub-specialty support in
VA Maine HCS surgical program.




VA Office of Inspector General                                                                  9
    Alleged Patient Safety Concerns in the Operating Room, VA Maine Healthcare System, Augusta, ME
                                                                                      Appendix C

                 OIG Contact and Staff Acknowledgments
Contact                  For more information about this report, please contact the OIG at
                         (202) 461-4720.
Contributors             Clarissa Reynolds, CNHA, MBA, Team Leader
                         Monika Gottlieb, MD
                         Jeanne Martin, PharmD
                         Claire McDonald, MPA




VA Office of Inspector General                                                                 10
    Alleged Patient Safety Concerns in the Operating Room, VA Maine Healthcare System, Augusta, ME
                                                                                      Appendix D



                                 Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VA New England Healthcare System (10N1)
Director, VA Maine Healthcare System (402/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
Senate Committee on Homeland Security and Governmental Affairs
Related Agencies
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Susan M. Collins, Angus S. King, Jr.
U.S. House of Representatives: Chellie Pingree, Michael H. Michaud



This report is available on our web site at www.va.gov/oig




VA Office of Inspector General                                                                 11
